           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


            INDIVIDUAL
     REPRESENTATIVE PAYEES
              FOR THE
 SOCIAL SECURITY ADMINISTRATION
   IN THE PHILADELPHIA REGION


   April 2005      A-14-05-15050




   EVALUATION
     REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM


Date:   April 22, 2005                                                                    Refer To:

To:     Laurie Watkins
        Regional Commissioner
         Philadelphia

From:   Inspector General

Subject: Individual Representative Payees for the Social Security Administration in the
        Philadelphia Region (A-14-05-15050)


        OBJECTIVE
        Our objective was to confirm that beneficiaries in the care of representative payees
        existed; and, through personal observation and interviews, to determine whether the
        beneficiaries' food, clothing and shelter needs were being met.

        BACKGROUND
        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental and/or physical impairments. Congress granted the Social
        Security Administration (SSA) the authority to appoint representative payees to receive
        and manage these beneficiaries’ benefit payments.1 A representative payee may be an
        individual or an organization. SSA selects representative payees for Old-Age, Survivors
        and Disability Insurance beneficiaries and Supplemental Security Income recipients
        when representative payments would serve the individual’s interests.

        SSA’s primary concern is to select the payee who will best serve the beneficiary’s2
        interest; and preference is normally given to a parent, legal guardian, spouse or other
        relative of a beneficiary.3 SSA considers payments to a representative payee to have
        been used for the benefit of the beneficiary if they were spent on the beneficiary’s

        1
         The Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii), 42 U.S.C. §§ 405(j)(1)(A) and
        1383(a)(2)(A)(ii).
        2
         We use the term “beneficiary” generically to refer to both Old-Age, Survivors and Disability Insurance
        beneficiaries and Supplemental Security Income recipients.
        3
            20 Code of Federal Regulations (C.F.R.) §§ 404.2021 and 416.621.
Page 2 – Laurie Watkins


current maintenance—which includes the costs incurred in “…obtaining food, shelter,
clothing, medical care, and personal comfort items.”4

We conducted a nation-wide review of individual representative payees serving 14 or
fewer beneficiaries (Appendix A). There are approximately 4.3 million of these types of
representative payees serving approximately 5.5 million beneficiaries. To provide
statistically valid nation-wide projections, we randomly selected 275 individual
representative payees for review, of which 31 were in the Philadelphia Region
(Appendix B). These 31 representative payees received and managed approximately
$22,534 in monthly benefits for 41 beneficiaries.

RESULTS OF REVIEW
We confirmed the existence of the 41 beneficiaries in the care of the 31 representative
payees in the Philadelphia Region. Also, through personal observation and interviews,
we found that 40 of the 41 beneficiaries' food, clothing and shelter needs were being
met. One representative payee refused to allow us to interview the beneficiary at his
residence and therefore we were unable to determine whether the beneficiary’s shelter
needs were being met.

For 38 of the 40 beneficiaries whose needs were being met, nothing came to our
attention that would lead us to believe the representative payees did not use the Social
Security benefits received for the beneficiaries’ needs. However, two representative
payees did not manage the benefits of two beneficiaries. Specifically, we found that
one representative payee turned over the entire benefit amount to the beneficiary
without providing any direction or instruction about how to use the funds, and one
representative payee had relinquished his responsibilities to another individual.

A Representative Payee Refused to Cooperate

After an individual has been selected as a representative payee, SSA may ask the
representative payee to provide information showing a continuing relationship to the
beneficiary and a continuing responsibility for the beneficiary’s care. If the
representative payee does not provide the requested information within a reasonable
period of time, SSA may stop paying the representative payee unless SSA determines
there is a satisfactory reason for not complying with the request.5 Also, SSA’s policy
states that, as soon as it appears a representative payee cannot be located, no longer
acts on the beneficiary’s behalf, or is uncooperative, SSA should determine whether a
new representative payee should be appointed.6


4
    20 C.F.R. §§ 404.2040(a) and 416.640(a).
5
    20 C.F.R. §§ 404.2025 and 416.625.
6
    SSA Program Operations Manual System (POMS), SI 02301.235 I.2. and GN 00504.100.
Page 3 – Laurie Watkins


For one representative payee, we could not determine whether the beneficiary’s shelter
needs were being met because we were unable to determine where the beneficiary was
living. We interviewed the beneficiary in the lobby of the apartment building where the
representative payee and the beneficiary supposedly lived. SSA’s records showed the
beneficiary was living with the representative payee in an apartment in the building;
however, the representative payee contradicted this information. When we interviewed
the representative payee, he stated the beneficiary did not live with him, yet the
beneficiary stated he was living with the representative payee. We requested SSA to
follow up on this case to determine where the representative payee and beneficiary
were actually living and whether a change of payee was indicated. In November 2004,
SSA performed a redetermination on the beneficiary and appointed a new payee at the
beneficiary’s request. At the time of our review, approximately $7,092 per year was
at-risk of not being managed appropriately.

A Representative Payee Turned over the Entire Benefit Amount to the Beneficiary

One of a representative payee’s primary responsibilities is to ensure the beneficiary’s
day-to-day needs are met. This includes costs incurred to obtain food, shelter, clothing,
medical care, and personal items. It also includes, but is not limited to, regularly
meeting with the beneficiary to ascertain his/her current and foreseeable needs.7 In two
cases, we determined the representative payees were “conduit payees” because they
turned over the benefit payments to the beneficiary or to a third party each month
“…without giving any direction or instruction about how to use the funds.”8 SSA allows
this practice as long as the representative payee gives the beneficiary or third party
direction or instruction about how to use the funds and can account for how the funds
were spent.

In this case, the representative payee simply turned over the entire $611 in monthly
benefits to the beneficiary without providing direction or instruction on how to spend it
and did not account for how the funds were spent. This occurred because the
representative payee believed the beneficiary was capable of managing her own
benefits. As a result of our interview, SSA reevaluated the beneficiary’s need for a
representative payee and determined the beneficiary was capable of handling her own
benefits. The beneficiary was subsequently appointed as her own payee.

A Representative Payee Relinquished His Responsibilities to Another Individual

SSA policy requires that SSA find the person or organization best suited to be a
representative payee.9 In determining who would be best suited, SSA performs a face-
to-face interview, verifies the payee’s identity, and evaluates the applicant using such
factors as (1) concern for the beneficiary’s well being, (2) ability to handle his/her own

7
    SSA POMS, GN 00502.113.C.1.
8
    SSA POMS, GN 00605.066 B.2.
9
    SSA POMS, GN 00502.100.A. and GN 00502.130.A.
Page 4 – Laurie Watkins


affairs, (3) knowledge of the beneficiary’s current and foreseeable needs,
(4) relationship to the beneficiary, and (5) history of criminal behavior or (6) prior misuse
of benefits.10 Furthermore, during the interview, SSA ensures the applicant
understands a representative payee’s duties and responsibilities.

One individual was the representative payee of record but had relinquished his duties to
another individual. The representative payee (who was the beneficiary’s father) turned
over the entire $603 in monthly benefits to the beneficiary’s mother. The payee no
longer controlled the funds nor could he account for how the funds were used. Because
the beneficiary lived with his mother, she was paying the bills and maintaining records.
Additionally, the payee failed to report that the beneficiary had moved and was no
longer in his care.

In this case, the representative payee had relinquished his duties to another individual
(the beneficiary’s mother) who was unknown to SSA because she had not applied to be
a representative payee. Therefore, SSA had not determined whether the individual who
had assumed the role of representative payee was the best suited payee. Furthermore,
SSA could not ensure this individual understood a representative payee’s
responsibilities. As a result of our review, SSA initiated a change of payee for this
beneficiary and, on December 15, 2004, appointed the mother as representative payee.

CONCLUSIONS
We confirmed the existence of 41 of the beneficiaries in the care of 31 representative
payees in the Philadelphia Region. Through personal observation and interviews, we
found that 40 beneficiaries' food, clothing and shelter needs were being met. For 1 of
the 41 beneficiaries, we could not determine whether the beneficiary’s shelter needs
were being met.

For 2 of the remaining 40 beneficiaries whose food, clothing, and shelter needs were
being met, we found

•     1 representative payee had turned over the entire benefit amount to the beneficiary,
      and

•     1 representative payee had relinquished his responsibilities to another individual.

Other than the exceptions noted above, nothing came to our attention that would lead
us to believe the representative payees did not use the Social Security benefits received
for the beneficiaries’ needs.

Our contact with the payees also provided the local SSA staff the opportunity to address
other issues facing the payees and beneficiaries—thus contributing to SSA’s goal for
delivering high quality, citizen-centered service.

10
     SSA POMS, GN 00502.113 and GN 00502.130.B.
Page 5 – Laurie Watkins


Because SSA took prompt action to address problems identified during our review, we
have no recommendations for the Agency.

AGENCY COMMENTS
SSA had no comments on the report (see Appendix C).

OTHER MATTER

Inconsistent Information

We found instances of inconsistent beneficiary and representative payee information
within SSA’s database records. Some examples of inconsistencies include different
addresses and telephone numbers on the Representative Payee System, Master
Beneficiary Record, and Supplemental Security Record and incorrect or outdated
telephone numbers or addresses for some individuals.




                                           S
                                           Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Scope and Methodology

APPENDIX B – Sampling Methodology and Results

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                                                  Appendix A

Scope and Methodology
The nation-wide population included all individual representative payees within the
contiguous 48 States and the District of Columbia serving 14 or fewer beneficiaries as
of May 20, 2004. To accomplish our objective, we:

•   Reviewed SSA’s policies and procedures for monitoring representative payees and
    their responsibilities for the beneficiaries in their care.

•   Obtained a data extract of representative payees from the Representative Payee
    System as of May 2004 meeting our selection criteria.

•   Selected a random sample of 275 representative payees nationwide. We are
    issuing a separate report on the nation-wide results, as well as separate reports for
    each of the 10 SSA regions.1

For the 31 representative payees in the Philadelphia Region we:

•   verified the identities of 31 representative payees and 41 beneficiaries they served;

•   interviewed 31 representative payees;

•   interviewed/observed 41 beneficiaries; and

•   visited and observed the living conditions of 40 beneficiaries.

We performed our review in the District of Columbia, Maryland, Pennsylvania, Virginia,
and West Virginia from July to October 2004. We conducted our review in accordance
with Quality Standards for Inspections issued by the President’s Council on Integrity and
Efficiency.


1
  SSA OIG, Nation-wide Survey of Individual Representative Payees for the Social Security
Administration (A-13-05-25006), Individual Representative Payees for the Social Security Administration
in the Boston Region (A-01-05-15048), Individual Representative Payees for the Social Security
Administration in the New York Region (A-02-05-15049), Individual Representative Payees for the Social
Security Administration in the Philadelphia Region (A-14-05-15050), Individual Representative Payees for
the Social Security Administration in the Atlanta Region (A-13-05-15051), Individual Representative
Payees for the Social Security Administration in the Chicago Region (A-05-05-15052), Individual
Representative Payees for the Social Security Administration in the Dallas Region (A-06-05-15053),
Individual Representative Payees for the Social Security Administration in the Kansas City Region.
(A-07-05-15054), Individual Representative Payees for the Social Security Administration in the Denver
Region (A-07-05-15055), Individual Representative Payees for the Social Security Administration in the
San Francisco Region (A-09-05-15056), and Individual Representative Payees for the Social Security
Administration in the Seattle Region (A-09-05-15057).
                                                                                   Appendix B

Sampling Methodology and Results
To identify the nation-wide population, we obtained a data extract from the Social
Security Administration’s Representative Payee System of all individual representative
payees who had 14 or fewer beneficiaries in their care as of May 20, 2004. This
population was 5,380,635 representative payees who served 6,818,696 beneficiaries.

From this population, we excluded those representative payees who:
• resided outside of the 48 contiguous States and the District of Columbia;
• served only as their own representative payee, as reflected in the Representative
   Payee System;
• had all beneficiaries in noncurrent pay status;
• had an invalid state code or military address; or
• managed total funds of $50 or less monthly.

This reduced our population to 4.3 million representative payees serving 5.5 million
beneficiaries. From this population, we randomly selected 275 representative payees
for review. Issues discussed in this report will be included in the national report.

Initially, 30 of the 275 sample cases chosen were located in the Philadelphia Region.
However, two of the selected representative payees were added to, and one was
removed from, our Region for review.
• One was transferred to the San Francisco Region because SSA records showed the
     representative payee had a Maryland address when the representative payee and
     beneficiary actually lived in Nevada.
• One was transferred from the Kansas City Region because SSA records showed the
     representative payee had an Iowa address when the representative payee and
     beneficiary actually lived in Pennsylvania.
• One was added because SSA records showed a representative payee had a
     Massachusetts address when actually the representative payee and beneficiary had
     moved to Puerto Rico. Therefore, this case was dropped from the sample and the
     randomly chosen replacement case was located in the Philadelphia Region.

Accordingly, our review of the Philadelphia Region consisted of 31 representative
payees. Our findings in the Philadelphia Region will be included in a national report,
where statistical projections will be made. The following table provides the details of our
sampling results in the Philadelphia Region.

                          Sample Results                             Cases        Dollar Amount1
     A Representative Payee Refused to Cooperate                        1                 $7,092

1
    12-month estimate based on monthly benefit payment amount at the time of our audit.
                                                                              Appendix C

Agency Comments

April 6, 2005

OIG DRAFT REPORT, "INDIVIDUAL REPRESENTATIVE PAYEES FOR THE SOCIAL SECURITY
ADMINISTRATION IN THE PHILADELPHIA REGION" (A-14-05-15050) AUDIT NO. 22004090

Mr. Schaeffer:


The Philadelphia Region has no comments on Audit No. 22004090. If members of your staff have any
questions, they should contact Clare O'Donnell, Center for Programs Support, at (215) 597-1754.


                                                /s/
                                        Paula M. Newcomer
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

    Kitt Winter, Director, Data Analysis and Technology Audit Division
    (410) 966-9702

    Albert Darago, Acting Director, Data Analysis and Technology Audit Division
    (410) 965-9710


Acknowledgments

In addition to those named above:

    Anita McMillan, Auditor-in-Charge

    Deborah Kinsey, Senior Systems Auditor

    Alan Lang, Senior Systems Auditor

    Walter Bayer, Director, Mid-Atlantic Audit Division

    Michael Maloney, Audit Manager, Mid-Atlantic Audit Division

    Cylinda McCloud-Keal, Audit Manager, Mid-Atlantic Audit Division

    Ellen Silvela, Auditor, Mid-Atlantic Audit Division

    Mildred Soto, Auditor, Mid-Atlantic Audit Division

    Frank Trzaska, Auditor, Mid-Atlantic Audit Division

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-14-05-15050.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
